NO. _________
IN THE SUPREME COURT OF THE UNITED STATES
JOSHUA GLEN BOX,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
__________________________________________
PETITION FOR A WRIT OF CERTIORARI
APPENDIX
__________________________________________

INDEX TO APPENDIX

United States v. Box, 960 F.3d 1025 (8th Cir. 2020).................................................. 1a
United States v. Mayokok, 854 F.3d 987 (8th Cir. 2017) ........................................... 4a

1025

U.S. v. BOX
Cite as 960 F.3d 1025 (8th Cir. 2020)

The government argues that Chambers
has been superseded by later decisions of
the Supreme Court that require a prisoner
to show a significant possibility of success
on the merits before a court may grant a
stay. E.g., Dunn v. McNabb, ––– U.S.
––––, 138 S. Ct. 369, 369, 199 L.Ed.2d 274
(2017); Hill v. McDonough, 547 U.S. 573,
584, 126 S.Ct. 2096, 165 L.Ed.2d 44 (2006);
Nelson v. Campbell, 541 U.S. 637, 649-50,
124 S.Ct. 2117, 158 L.Ed.2d 924 (2004).
Chambers did not address the prisoner’s
likelihood of success and focused instead
on the ‘‘appreciable chance’’ that he
‘‘should have received plenary appellate
review of all issues properly raised in his
habeas petition.’’ 197 F.3d at 309.
[2] Even assuming that Chambers survives the subsequent decisions, a matter
we need not decide, it is limited to its
procedural context. The concern in Chambers was that the prisoner might not have
received the plenary appellate review to
which he was entitled on his first petition
for writ of habeas corpus, because the
court imposed a certificate of appealability
requirement that might not have been applicable. Id. In this case, by contrast, it
was settled that Lee was required to obtain a certificate of appealability, and he
received full appellate review on that basis.
See United States v. Lee, 715 F.3d 215 (8th
Cir. 2013). If Chambers made an exception
to the rule that a prisoner seeking a stay
of execution must satisfy the ordinary requirements for a stay, see Hill, 547 U.S. at
584, 126 S.Ct. 2096, it does not extend
beyond the situation in that case. And Lee
already received one full round of review
on his present claim of ineffective assistance: the district court ruled that the
claim was ‘‘lacking in merit,’’ Lee, 2010 WL
5347174, at *5-6, and this court denied a
certificate of appealability on that issue.
See Motion to Expand Certificate of Appealability, at 70-90, United States v. Lee,

No. 11-1380 (8th Cir. June 20, 2011); Order, No. 11-1380 (Feb. 17, 2012).
The district court thus did not apply the
correct legal standard in evaluating Lee’s
motion for stay. An appreciable chance
that Banister could allow for additional
judicial consideration of Lee’s previously
denied Rule 59(e) motion was not sufficient
to justify a stay of execution. Accordingly,
we vacate the district court’s order of December 6, 2019.

,
UNITED STATES of America,
Plaintiff-Appellee,
v.
Joshua Glen BOX, DefendantAppellant.
No. 19-1366
United States Court of Appeals,
Eighth Circuit.
Submitted: February 10, 2020
Filed: June 2, 2020
Background: Defendant pled guilty in the
United States District Court for the Western District of Arkansas, Timothy L.
Brooks, J., to receipt of child pornography
and possession of child pornography, and
he appealed.
Holdings: The Court of Appeals held that
defendant’s Arkansas convictions for possession of child pornography triggered 15year mandatory minimum sentence.
Affirmed.

1a

1026

960 FEDERAL REPORTER, 3d SERIES

Sentencing and Punishment O95
Defendant’s Arkansas convictions for
possession of child pornography qualified
as prior convictions ‘‘relating to’’ possession of child pornography, triggering 15year mandatory minimum sentence upon
defendant’s convictions for receipt of child
pornography and possession of child pornography, even though Arkansas statute
included lewd exhibition of female breast,
but federal statute did not. 18 U.S.C.A.
§ 2252A(b)(1); Ark. Code Ann. § 5-27-602.
Appeal from United States District
Court for the Western District of Arkansas - Fayetteville
Counsel who represented the appellant
was Anna Marie Williams, AFPD, of Fayetteville, AR.
Counsel who represented the appellee
was former AUSA, Denis Dean, of Fort
Smith, AR.
Before SMITH, Chief Judge,
COLLOTON and STRAS, Circuit Judges.
PER CURIAM.
Joshua Box pleaded guilty to receipt of
child pornography, see 18 U.S.C.
§ 2252A(a)(2)(A), (b)(1), and possession of
child
pornography,
see
id.
§ 2252A(a)(5)(B), (b)(2). At sentencing, the
district court 1 considered whether Box
was subject to a statutory minimum penalty under 18 U.S.C. § 2252A(b)(1). That
provision applies to an offender who violates the federal laws on child pornography
and has a prior conviction ‘‘under the laws
of any State relating to TTT the TTT possession TTT of child pornography.’’ The court
concluded that Box’s five prior Arkansas
convictions for possession of child pornog1.

The Honorable Timothy L. Brooks, United
States District Judge for the Western District

raphy, in violation of Ark. Code Ann. § 527-602, qualified as prior convictions under
§ 2252A(b)(1). Accordingly, the court imposed the statutory minimum term of fifteen years’ imprisonment.
Box argues on appeal that his Arkansas
convictions do not qualify as prior convictions for purposes of the federal penalty
statute. The Arkansas statute of conviction
prohibits the knowing possession of material that depicts a ‘‘child engaging in sexually explicit conduct,’’ where ‘‘sexually explicit conduct’’ includes ‘‘[l]ewd exhibition
of the: (i) Genitals or pubic area of any
person; or (ii) Breast of a female.’’ Ark.
Code. Ann. §§ 5-27-602, 5-27-601(15)(F).
Box asserts that the district court erred in
determining that his Arkansas convictions
qualified as prior convictions, because the
state statute ‘‘punished more conduct than
its federal counterpart.’’ Under federal
law, child pornography does not include
lascivious exhibition of the female breast.
18 U.S.C. §§ 2256(8)(A), (2)(A)(v).
Box concedes, however, that his contention is foreclosed by this court’s decision in
United States v. Mayokok, 854 F.3d 987
(8th Cir. 2017), and he seeks only to preserve the argument for further review.
Mayokok considered a minimum sentence
under an analogous penalty statute, 18
U.S.C. § 2252(b)(1). That provision states
that a person who violates § 2252(a)(2) is
subject to a minimum penalty if he ‘‘has a
prior conviction TTT under the laws of any
State relating to TTT the TTT possession
TTT of child pornography.’’
Although the Minnesota criminal statute
at issue in Mayokok encompassed the possession of material that depicted a minor
engaged in conduct that involved physical
contact with the unclothed breast of a feof Arkansas.

2a

JACOBS FIELD SERVICES NORTH AMERICA v. SCALIA
Cite as 960 F.3d 1027 (8th Cir. 2020)

male, this court concluded that a prior
state conviction ‘‘relate[d] to the possession TTT of child pornography’’ under the
federal statute. Mayokok, 854 F.3d at 993
(internal quotation omitted). The court
reasoned that although ‘‘one can conjure
scenarios that violate one statute but not
the other,’’ the question ‘‘is not whether
the statutes criminalize exactly the same
conduct, but whether the full range of
conduct proscribed under [the state statute] relates to the ‘possession TTT of child
pornography’ as that term is defined under
federal law.’’ Id. at 992-93. Following United States v. Bennett, 823 F.3d 1316, 1325
(10th Cir. 2016), Mayokok held that because ‘‘ ‘relating to’ carries a broad ordinary meaning, i.e., to stand in some relation to; to have bearing or concern; to
pertain; refer; to bring into association or
connection with,’’ the Minnesota statute of
conviction related to the possession of child
pornography under federal law. 854 F.3d
at 993 (internal quotation omitted).
There is no material distinction between
the penalty statute at issue here,
§ 2252A(b)(1), and the statute at issue in
Mayokok, § 2252(b)(1): both refer to a
prior conviction ‘‘under the laws of any
State relating to TTT the TTT possession
TTT of child pornography.’’ In light of
Mayokok, therefore, the district court
properly determined that Box’s convictions
under the Arkansas child pornography
statute qualified as prior convictions that
triggered the statutory minimum sentence
under § 2252A(b)(1). See also United
States v. Colson, 683 F.3d 507, 511 & n.2
(4th Cir. 2012) (holding that conviction under state statute that extended to lewd
exhibitions of buttocks and female breasts
qualified as prior conviction under
§ 2252A(b)(1)); but see United States v.
Reinhart, 893 F.3d 606, 615 & n.4 (9th Cir.
2018) (applying 18 U.S.C. § 2252(b)(2)).

1027

The judgment of the district court is
affirmed.

,
JACOBS FIELD SERVICES NORTH
AMERICA, INC., Petitioner
v.
Eugene SCALIA, Secretary
of Labor, Respondent
No. 19-1517
United States Court of Appeals,
Eighth Circuit.
Submitted: January 15, 2020
Filed: June 2, 2020
Background: Employer, a national electrical contractor that provided electrical
maintenance service to Nebraska corn
processing plant, petitioned for review of
order of the Occupational Safety and
Health Review Commission upholding citation for single, serious violation of Occupational Safety and Health Administration
(OSHA) regulation governing use of electrical personal protective equipment
(PPE) and imposing a penalty of $11,408,
after its employee, an apprentice electrician, was seriously burned by arc flash
while connecting wires from new electrical
panel at plant to disconnect switch outside
building.
Holdings: The Court of Appeals, Loken,
Circuit Judge, held that:
(1) Secretary of Labor failed to prove that
employer categorically violated OSHA
electrical safety standards through its
policy of not deenergizing the line side
of a disconnect when its employees

3a

987

U.S. v. MAYOKOK
Cite as 854 F.3d 987 (8th Cir. 2017)

trary. See Faulder v. Texas Bd. of Pardons
& Paroles, 178 F.3d 343, 345 (5th Cir.
1999) (examining petitioner’s objections to
parole board’s procedures ‘‘either individually or cumulatively under the facts of this
case’’). The deviations from the procedural
rules in this case were magnified by the
fact that the Board was faced with six
death row inmates’ clemency petitions,
which the district court found ‘‘generally
bewildered’’ the state and ‘‘led to error.’’
Because of Arkansas’ procedural failures,
the appellants here did not have ‘‘ample
opportunity to present [their] best case to
the Board,’’ nor did the Board or the Governor have time to give ‘‘it appropriate
consideration.’’ Faulder, 178 F.3d at 345.
The remaining factors also support
granting a stay of execution. See Hill v.
McDonough, 547 U.S. 573, 584, 126 S.Ct.
2096, 165 L.Ed.2d 44 (2006). The only reason for the expedited clemency process
and the abandonment of state clemency
procedures was Arkansas’ contention that
all of the appellants’ executions needed to
be conducted before April 30 because the
execution drugs Arkansas possessed were
due to expire. By any measure, the appellants’ interest in their own lives is stronger
than the state’s interest in their soon-toexpire drugs. Finally, members of the public, and in particular those impacted by
appellants’ executions, have an interest in
notice and an opportunity to be heard during the clemency process.
Clemency proceedings have an important role to play in the administration of
the death penalty. See Harbison v. Bell,
556 U.S. 180, 194, 129 S.Ct. 1481, 173
L.Ed.2d 347 (2009) (holding that the Criminal Justice Act, 18 U.S.C. § 3559(e) authorizes federally appointed counsel to
represent death row prisoners in state
clemency proceedings); id. at 192, 129 S.Ct.
1481 (‘‘Far from regarding clemency as a
matter of mercy alone, we have called it
the fail safe in our criminal justice sys-

tem.’’ (quotation omitted)); Herrera v. Collins, 506 U.S. 390, 411–12, 113 S.Ct. 853,
122 L.Ed.2d 203 (1993) (recognizing that
‘‘[c]lemency is deeply rooted in our Anglo–
American tradition of law, and is the historic remedy for preventing miscarriages
of justice where judicial process has been
exhausted’’ (footnote omitted)). Although
the outcome of the clemency process is
fully in the discretion of the executive, the
clemency procedures cannot be arbitrarily
applied against the appellants such that
they are denied notice and a fair opportunity to present their application. Because I
find that the appellants have made a showing of a significant possibility that they
were denied due process in their clemency
proceedings and the balance of equities
tips in their favor, I would grant the motion to stay the executions.

,
UNITED STATES of America,
Plaintiff–Appellee
v.
Joel Augutuk MAYOKOK,
Defendant–Appellant
No. 16-1753
United States Court of Appeals,
Eighth Circuit.
Submitted: November 18, 2016
Filed: April 24, 2017
Background: Defendant pled guilty in the
United States District Court for the District of Minnesota, Susan Richard Nelson,
J., to receipt of child pornography and was
sentenced to 240 months imprisonment,
followed by 15 years of supervised release.
Defendant appealed.

4a

988

854 FEDERAL REPORTER, 3d SERIES

Holdings: The Court of Appeals, Shepherd, Circuit Judge, held that:
(1) District Court’s error in applying fivelevel enhancement to defendant’s offense level, for distribution of child
pornography for receipt or with expectation of receiving a thing of value,
required remand to District Court for
resentencing without enhancement, but
(2) defendant’s prior Minnesota conviction
for possession of pornographic work
involving minors triggered application
of 15-year mandatory minimum sentence upon defendant’s conviction for
receipt of child pornography.
Affirmed in part, vacated in part, and remanded.
1. Criminal Law O1181.5(8)
Sentencing and Punishment O698
District Court’s error in applying fivelevel enhancement to defendant’s offense
level, for distribution of child pornography
for receipt or with expectation of receiving
a thing of value, when sentencing him upon
his conviction for receipt of child pornography, required remand to District Court for
resentencing without enhancement; government did not present evidence to establish that defendant engaged in file sharing
after he uploaded image to photo-upload
website, emails discussed during sentencing hearing established only that defendant sent and received files via emails, and
there was no evidence defendant sent
emails with expectation of receiving a
thing of value. 18 U.S.C.A. § 2252(a)(2);
U.S.S.G. § 2G2.2(b)(3)(B).
2. Criminal Law O1134.75, 1134.77
When reviewing the imposition of a
sentence, the Court of Appeals first reviews for significant procedural error,
which includes the improper calculation of
a guidelines range.

3. Criminal Law O1139
The Court of Appeals reviews de novo
a challenge to the application of a mandatory minimum sentence.
4. Sentencing and Punishment O95
A sentencing court employs a categorical approach to determine whether a prior
state court conviction involving sexual exploitation of minors triggers a mandatory
minimum sentence; under this approach,
the court looks to the fact of conviction and
the statutory definition of the prior offense, and determines whether the full
range of conduct encompassed by the state
statute qualifies to enhance the sentence.
18 U.S.C.A. § 2252(b)(1).
5. Obscenity O258
Sentencing and Punishment O95
Full range of conduct proscribed under Minnesota statute, which criminalized
as felony the possession of pornographic
work or computer disk or computer containing pornographic work, knowing or
with reason to know its content and character, related to ‘‘possession of child pornography’’ as term was defined under federal law, and, thus, defendant’s prior
Minnesota conviction for possession of pornographic work involving minors triggered
application of 15-year mandatory minimum
sentence upon defendant’s conviction for
receipt of child pornography; any conduct
violating Minnesota statute necessarily related to possession of child pornography
under
federal
law.
18
U.S.C.A.
§§ 2252(a)(2), 2252(b)(1); Minn. Stat. Ann.
§ 617.247(4).

Appeal from United States District
Court for the District of Minnesota—St.
Paul, Honorable Susan Richard Nelson
Counsel who represented the appellant
was Mark D. Nyvold of Fridley, MN.

5a

989

U.S. v. MAYOKOK
Cite as 854 F.3d 987 (8th Cir. 2017)

Counsel who represented the appellee
was Katharine Thornton Buzicky, AUSA,
of Minneapolis, MN.
Before BENTON and SHEPHERD,
Circuit Judges, and EBINGER,1 District
Judge.
SHEPHERD, Circuit Judge
In 2013, based upon a report from the
National Center for Missing and Exploited
Children that an e-mail address owned by
Appellant, Joel Augutuk Mayokok, was being used to upload child pornography via
Google Picasa, a photo-upload website, the
Minnesota Bureau of Criminal Apprehension obtained a search warrant for Mayokok’s computers and found 986 images and
165 videos containing child pornography.
Mayokok was charged by indictment with
distribution and receipt of child pornography, both in violation of 18 U.S.C.
§ 2252(a)(2), and possession of child pornography in violation of 18 U.S.C.
§ 2252(a)(4)(B). Pursuant to a plea agreement, Mayokok pled guilty to receipt of
child pornography and was sentenced to
240 months imprisonment and 15 years
supervised release. The remaining counts
of the indictment were dismissed.
On appeal, Mayokok asserts that the
district court committed procedural error
in calculating his offense level by applying
a five-level enhancement after the court
found that the offense involved the distribution of material involving the sexual exploitation of a minor for the receipt, or
expectation of receipt, of a thing of value
under USSG § 2G2.2(b)(3)(B). He likewise
challenges the district court’s determination that a 15–year mandatory minimum
sentence applies under 18 U.S.C.
§ 2252(b)(1) based upon Mayokok’s 2003
Minnesota conviction for possession of a
1.

The Honorable Rebecca Goodgame Ebinger, United States District Judge for the South-

pornographic work involving minors. Having jurisdiction in this appeal pursuant to
28 U.S.C. § 1291, we remand this matter
to the district court for resentencing.
I.
In describing the criminal conduct supporting the plea of guilty to the charge of
receipt of child pornography, the plea
agreement stated:
On or about January 7, 2013, in the
State and District of Minnesota, Defendant did knowingly receive a visual depiction using a means and facility of
interstate and foreign commerce and
that had been mailed, shipped and transported in interstate and foreign commerce, by computer, where the production of such visual depiction involved the
use of a minor engaging in sexually explicit conduct and such depiction was of
such conduct. Specifically, Defendant received via email a video file entitled TTT,
which is a video [sic] pre-pubescent female who appears to be 7 to 10 years of
age. The child is unclothed and is performing oral intercourse on an adult
male.
The parties also agreed to a base offense
level of 22 with the following enhancements: two levels for material involving
prepubescent minors who had not attained
the age of 12 years old, USSG
§ 2G2.2(b)(2); four levels for material portraying sadistic or masochistic conduct or
other depictions of violence, USSG
§ 2G2.2(b)(4); and two levels for material
involving the use of a computer or interactive
computer
service,
USSG
§ 2G2.2(b)(6). The agreement further noted that the government believed ‘‘that the
offense level should be further increased
by 5 levels because the offense involved
ern District of Iowa, sitting by designation.

6a

990

854 FEDERAL REPORTER, 3d SERIES

600 or more images (USSG § 2G2.2(b)(7)),
and 5 levels because the offense involved
distribution with the expectation of [sic] a
thing of value (but not for pecuniary gain)
(USSG § 2G2.2(b)(3)(B)).’’ Mayokok did
not agree to these two enhancements and
he reserved the right to argue against
their assessment. On the other hand, Mayokok did agree to the statement of facts
contained in the plea agreement.
In his presentence report (PSR) to the
district court, the probation officer recommended both a five-level enhancement for
an offense involving more than 600 images
and a five-level enhancement because the
offense involved the distribution of child
pornography with the expectation of receiving a thing of value. With respect to
the latter enhancement the PSR stated
that Mayokok:
distributed the images with the expectation of receiving child pornography in
return for the image uploaded on the
photo-sharing website Google PicasaTTTT The nature of Google Picasa is to
share photos. Therefore, the nature of
the defendant’s conduct of uploading
child pornography on Google Picasa was
with the expectation to receive child pornography in return.
Mayokok submitted objections to the
PSR and filed objections with the district
court prior to sentencing asserting that
there was a lack of factual support for the
USSG § 2G2.2(b)(3)(B) enhancement. He
alleged that there was insufficient evidence that Mayokok uploaded child pornography to the Google Picasa website or
that it was uploaded with the expectation
of receiving child pornography in return.
He further objected that although Google
Picasa allows photos to be uploaded, there
was insufficient proof to allow the Court to
conclude that Picasa operates as a filesharing program or in a way that makes it
reasonable to conclude that there was distribution and that it was done with the

expectation of receiving child pornography
in return. Mayokok also objected that insufficient proof exists that e-mails containing child pornography and sent to Mayokok were sought by Mayokok or that
Mayokok distributed child pornography
expecting child pornography in return.
At sentencing, the government presented no evidence in response to Mayokok’s
objections with respect to the USSG
§ 2G2.2(b)(3)(B) enhancement. Nevertheless, the district court overruled the objections and applied the enhancement to Mayokok’s offense level.
The plea agreement also contained Mayokok’s admission that in 2003 he was convicted in Redwood County, Minnesota, of
violating Minnesota Statute § 617.247,
subdivision 4, Possession of Pornographic
Work Involving Minors. Based upon this
conviction, the United States asserted that
a mandatory minimum sentence of 15
years and a maximum sentence of 40 years
applies to Mayokok’s case, as the Minnesota conviction constitutes a conviction relating to the ‘‘possession, receipt, mailing,
sale, distribution, shipment, or transportation of child pornography’’ pursuant to 18
U.S.C. § 2252(b)(1). Mayokok objected to
the application of this mandatory minimum
sentence. The district court overruled
Mayokok’s objection.
II.
[1] Mayokok asserts, and the United
States agrees, that Mayokok made timely
objections before the district court that the
five-level enhancement for distribution of
child pornography for the receipt or with
the expectation of receiving a thing of
value is not supported by the record, that
the sentencing record does not support the
enhancement, and that the district court
erred in applying the enhancement to
Mayokok’s offense level. The government
thus joins Mayokok in asking that this

7a

991

U.S. v. MAYOKOK
Cite as 854 F.3d 987 (8th Cir. 2017)

matter be remanded for resentencing without the five-level USSG § 2G2.2(b)(3)(B)
enhancement. We agree that remand is
appropriate.
[2] In reviewing a sentence, we first
review for significant procedural error.
United States v. Martin, 757 F.3d 776, 779
(8th Cir. 2014). Procedural error includes
improperly calculating the Guidelines
range. Gall v. United States, 552 U.S. 38,
51, 128 S.Ct. 586, 169 L.Ed.2d 445 (2007).
Further:
Application of sentencing enhancements
must be supported by a preponderance
of the evidence, and the government has
the burden to prove the factual basis for
an enhancement. It is well-established
that, when a defendant disputes material
facts in his PSR, the sentencing court
must either refuse to take those facts
into account or hold an evidentiary hearing. If the defendant objects to the factual basis for a sentencing enhancement,
and the government fails to present evidence to prove that factual basis by a
preponderance of the evidence, it is error to apply the enhancement.
United States v. Mitchell, 825 F.3d 422,
425 (8th Cir. 2016) (citations omitted) (internal quotation marks omitted).
Mayokok objected to the factual basis
for the USSG § 2G2.2(b)(3)(B) enhancement and the government acknowledges in
its brief ‘‘that the enhancement was not
sufficiently supported in the record.’’ The
transcript from the sentencing hearing reflects that evidence was presented showing
that (1) on November 12, 2013, Mayokok
uploaded an image to Google Picasa, and
(2) Mayokok exchanged e-mails containing
child pornography in July of 2013. But we
have ‘‘not condoned application of the enhancement simply because a defendant
uses a file-sharing program,’’ and no evidence was presented to establish the necessary proposition that Mayokok actually
engaged in file sharing after he uploaded

this image. See United States v. Dolehide,
663 F.3d 343, 348 (8th Cir. 2011) (‘‘[T]he
Government must present evidence that
the defendant uploaded and downloaded
files using LimeWire.’’). Further, the emails discussed by the district court during the sentencing hearing establish only
that Mayokok sent and received files via email. There is no evidence, however, that
Mayokok sent those e-mails with the expectation of receiving a thing of value.
Accordingly, it was error for the district
court to apply the enhancement. United
States v. Poor Bear, 359 F.3d 1038, 1042
(8th Cir. 2004) (‘‘The evidence that the
district court could rely on in making a
factual determination [as to a Guidelines
enhancement] include[ ] the unobjected-to
portions of the PSR, the written factual
basis of [a] plea agreement, and [evidence
presented at an evidentiary hearing].’’).
III.
[3] Mayokok also appeals the district
court’s imposition of the 15–year mandatory minimum sentence found in 18 U.S.C.
§ 2252(b)(1). We review de novo a challenge to the application of a mandatory
minimum sentence. United States v. Sonnenberg, 556 F.3d 667, 669 (8th Cir. 2009).
An individual who violates § 2252(a)(2) is
subject to a 15–year minimum sentence if
that person ‘‘has a prior conviction TTT
under the laws of any State relating to TTT
the production, possession, receipt, mailing, sale, distribution, shipment, or transportation
of
child
pornography.’’
§ 2252(b)(1).
[4] We employ a categorical approach
to determine whether a prior conviction
triggers a mandatory minimum sentence
under § 2252(b)(1). United States v.
Knowles, 817 F.3d 1095, 1097–98 (8th Cir.
2016). ‘‘Under this approach, the sentencing court looks to the fact of conviction and
the statutory definition of the prior offense

8a

992

854 FEDERAL REPORTER, 3d SERIES

and determines whether the full range of
conduct encompassed by the state statute
qualifies to enhance the sentence.’’ Sonnenberg, 556 F.3d at 670 (citing Taylor v.
United States, 495 U.S. 575, 600, 110 S.Ct.
2143, 109 L.Ed.2d 607 (1990)). Thus, our
present task is to determine whether the
full range of conduct proscribed by Minnesota Statute section 617.247, subdivision 4
(2002), ‘‘relat[es] to’’ the variety of child
pornography
offenses
described
in
§ 2252(b)(1).
At the time of Mayokok’s conviction,
section 617.247, subdivision 4 read as follows: ‘‘A person who possesses a pornographic work or a computer disk or computer TTT containing a pornographic work,
knowing or with reason to know its content
and character, is guilty of a felonyTTTT’’
For the purpose of the above statute, subdivision 2 provided that the terms ‘‘Pornographic work’’ and ‘‘Sexual conduct’’ were
given the definitions ascribed to them in
section 617.246. That section, in turn, defined ‘‘Pornographic work’’ as:
(1) an original or reproduction of a picture, film, photograph, negative, slide,
videotape, videodisc, or drawing of a
sexual performance involving a minor; or
(2) any visual depiction, including any
photograph, film, video, picture, drawing, negative, slide, or computer-generated image or picture, whether made or
produced by electronic, mechanical, or
other means that:
(i) uses a minor to depict actual or
simulated sexual conduct;
(ii) has been created, adapted, or modified to appear that an identifiable minor
is engaging in sexual conduct; or
(iii) is advertised, promoted, presented,
described, or distributed in such a manner that conveys the impression that the
material is or contains a visual depiction
of a minor engaging in sexual conduct.

Minn Stat. § 617.246, subd. 1(f) (2002). It
then defined the following acts as ‘‘sexual
conduct’’:
(1) an act of sexual intercourse, normal
or perverted, including genital-genital,
anal-genital, or oral-genital intercourse,
whether between human beings or between a human being and an animal;
(2) sadomasochistic abuse, meaning flagellation, torture, or similar demeaning
acts inflicted by or upon a person who is
nude or clad in undergarments or in a
revealing costume, or the condition of
being fettered, bound or otherwise physically restrained on the part of one so
clothed;
(3) masturbation;
(4) lewd exhibitions of the genitals; or
(5) physical contact with the clothed or
unclothed pubic areas or buttocks of a
human male or female, or the breasts of
the female, whether alone or between
members of the same or opposite sex or
between humans and animals in an act
of apparent sexual stimulation or gratification.
Id. § 617.246, subd. 1(e).
Under federal law, ‘‘ ‘child pornography’
means any visual depiction TTT of a minor
engaging in sexually explicit conduct.’’ 18
U.S.C. § 2256(8)(A). ‘‘Sexually explicit conduct’’ is further defined as ‘‘actual or simulated (i) sexual intercourse, including genital-genital, oral-genital, anal-genital, or
oral-anal, whether between persons of the
same or opposite sex; (ii) bestiality; (iii)
masturbation; (iv) sadistic or masochistic
abuse; or (v) lascivious exhibition of the
genitals or pubic area of any person.’’ Id.
§ 2256(2)(A).
[5] To be sure, despite the many similarities in these statutes, one can conjure
scenarios that violate one statute but not
the other. Indeed, Mayokok succeeds in
pointing out a number of examples in
which this occurs. The question, however,
is not whether the statutes criminalize ex-

9a

993

U.S. v. PEOPLES
Cite as 854 F.3d 993 (8th Cir. 2017)

actly the same conduct, but whether the
full range of conduct proscribed under section 617.246, subdivision 4 relates to the
‘‘possession TTT of child pornography’’ as
that term is defined under federal law.2
‘‘The phrase ‘relating to’ carries a broad
ordinary meaning, i.e., to stand in some
relation to; to have bearing or concern; to
pertain; refer; to bring into association or
connection with.’’ Sonnenberg, 556 F.3d at
671 (internal quotation marks omitted).
Applying the categorical approach, it is
clear from looking only at Mayokok’s 2003
conviction and its statutory definition that
any conduct violating section 617.247, subdivision 4, necessarily relates to the ‘‘possession TTT of child pornography’’ under
federal law. See United States v. Bennett,
823 F.3d 1316, 1325 (10th Cir. 2016).
The district court thus correctly applied
the statutory mandatory minimum sentence.
IV.
Accordingly, we affirm the application of
the 15–year mandatory minimum sentence
under 18 U.S.C. § 2252(b)(1), but we vacate Mayokok’s sentence and remand for
resentencing
without
the
USSG
§ 2G2.2(b)(3)(B) enhancement.

,
2.

For this reason, much of the discussion
from cases like Mathis v. United States, –––
U.S. ––––, 136 S.Ct. 2243, 195 L.Ed.2d 604
(2016), is inapposite to § 2252. The 15–year
mandatory minimum provided by the Armed
Career Criminal Act, 18 U.S.C. § 924(e)(1), is
imposed when an individual violates § 922(g)
‘‘and has three previous convictions by any
court referred to in section 922(g)(1) of this
title for a violent felony.’’ A ‘‘violent felony’’ is
further defined as, inter alia, ‘‘any crime TTT
that TTT is burglary.’’ Id. § 924(e)(2)(B)(ii).
Given Congress’s use of the concrete terms
like ‘‘for a violent felony’’ and ‘‘is,’’ the
Court’s specification that ‘‘[a] crime counts as

UNITED STATES of America,
Plaintiff–Appellee
v.
Dusty A. PEOPLES, Defendant–
Appellant
No. 16-2044
United States Court of Appeals,
Eighth Circuit.
Submitted: February 10, 2017
Filed: April 24, 2017
Background: Defendant, who was indicted for being a felon in possession of a
firearm, moved to suppress evidence obtained from search of motel room where he
was staying. The United States District
Court for the Western District of Missouri,
Brian C. Wimes, J., 2015 WL 7302776,
adopted report and recommendation of Sarah W. Hays, United States Magistrate
Judge, and denied motion. Defendant entered into plea agreement, in which he
reserved the right to appeal the denial of
motion to suppress, and defendant appealed.
Holding: The Court of Appeals, Gruender, Circuit Judge, held that police officer’s entry into defendant’s hotel room was
for the lawful purpose of effecting defendant’s eviction pursuant to Missouri statute, and thus, evidence observed during
‘burglary’ under the Act if its elements are the
same as, or narrower than, those of the generic offense’’ is less than surprising. Mathis, 136
S.Ct. at 2248. Here, by contrast, Congress
used the modifier ‘‘relating to,’’ and ‘‘[w]e
must assume’’ that it did so ‘‘for a purpose.’’
Sonnenberg, 556 F.3d at 671 (alteration in
original) (internal quotation marks omitted).
Given the Court’s broad interpretation of this
phrase in other contexts, see, e.g., Morales v.
Trans World Airlines, Inc., 504 U.S. 374, 383,
112 S.Ct. 2031, 119 L.Ed.2d 157 (1992), the
Congressional purpose was to subject a wider
range of prior convictions to the § 2252(b)(1)
enhancement.

10a

